<html>
<title> - NOMINATION OF JOHN S. PISTOLE</title>
<body><pre>[Senate Hearing 111-1082]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1082

                     NOMINATION OF JOHN S. PISTOLE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 17, 2010

                               __________

     NOMINATION OF JOHN S. PISTOLE TO BE ASSISTANT SECRETARY, U.S. 
                    DEPARTMENT OF HOMELAND SECURITY

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                  U.S. GOVERNMENT PRINTING OFFICE
58-036PDF                 WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001














        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
              Jason M. Yanussi, Professional Staff Member
             Elyse F. Greenwald, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
                   Luke P. Bellocci, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk
















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     2
    Senator Carper...............................................    14
Prepared statements:
    Senator Lieberman............................................    19
    Senator Collins..............................................    21

                                WITNESS
                        Thursday, June 10, 2010

John S. Pistole to be Assistant Secretary, U.S. Department of 
  Homeland Security
    Testimony....................................................     4
    Prepared statement...........................................    23
    Biographical and financial information.......................    26
    Responses to pre-hearing questions...........................    35
    Letter from the Office of Government Ethics..................    70
    Responses to post-hearing questions for the Record...........    71

 
                     NOMINATION OF JOHN S. PISTOLE

                              ----------                              


                        THURSDAY, JUNE 17, 2010

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:59 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Carper, and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Welcome 
to everybody. Today the Committee takes up the nomination of 
John Pistole to be the Assistant Secretary of Homeland Security 
in charge of the Transportation Security Administration (TSA), 
known as TSA to many millions of Americans. Mr. Pistole, 
welcome, and thanks for your willingness to serve.
    Mr. Pistole has been nominated to administer an agency of 
almost 50,000 employees with a $7 billion annual budget whose 
mission, of course, is to protect the safety of passengers and 
cargo traveling by road, rail, or air. This is an agency that, 
given its strategic importance to our homeland security, has 
gone far too long without permanent leadership.
    This nominee is the Administration's third nominee for the 
post. I hope and believe this third try will be the charm, so 
this Committee plans to vote on your nomination as soon as 
possible, probably sometime next week. I also hope the Senate 
confirms you quickly so that TSA's workforce can get the 
leadership that it really needs and deserves.
    Mr. Pistole has 27 years of experience in law enforcement, 
intelligence, and counterterrorism as a Federal Bureau of 
Investigation (FBI) special agent, inspector, assistant 
director of operations, assistant director of counterterrorism, 
and, for the past 5 years, as FBI Deputy Director, second only, 
of course, to Director Bob Mueller.
    In rising in this way through the FBI ranks, you have had 
important management responsibilities directing the day-to-day 
operations of an agency of 34,000 employees, 56 field offices 
around the country, and a budget of $8 billion. And, of course, 
that experience should serve you well, if confirmed, to lead 
TSA. Your work with State and local law enforcement and with 
international law enforcement and intelligence officials adds, 
I think, further to your qualifications to head this agency.
    If you are confirmed as TSA Administrator, you will be 
taking charge of an agency that has made enormous strides, in 
my opinion, in the last 8 years to strengthen the security of 
the commercial aviation sector. But it is an agency that still 
faces important, not fully met challenges, including improving 
the security of other forms of transportation here in America, 
particularly mass transit and rail.
    I was pleased by the Administration's proposed budget for 
fiscal year 2011, which adds $900 million to key aviation 
security programs, including money for more whole-body imaging 
machines and the personnel needed to operate them. And, 
remember, we were all focused on that need after the Christmas 
Day terrorist attack on the plane over Detroit.
    We know from hard experience that attacking commercial 
aviation remains a goal of our Islamist terrorist enemies. That 
is why the next TSA Administrator must ensure the smooth 
operation of a program known as Secure Flight, TSA's program to 
match passenger names against watchlists, and the development 
and implementation of new screening technologies as they arise.
    While the aviation sector remains a target, as I said, 
other forms of transportation must also be better protected 
because we know they have been targets in other countries in 
the world. TSA, I think, could do a better job to ensure that 
the Transit Security Grant Program is fair and effective as it 
works with State and local authorities to secure mass 
transportation systems and, of course, generally that we do a 
better job at securing our rail and bus systems.
    But bottom line, Mr. Pistole, you have been a superb public 
servant, in my opinion, and while others have left for the 
private sector, you continue to devote your career to keeping 
our country safe. I presume that is your family behind you, and 
this means that you have overridden their desire to go out into 
the private sector, if your family is anything like mine. But I 
want to thank you for your service and willingness to take on 
this critically important new assignment.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you. Mr. Chairman, I want to join 
you in welcoming Mr. Pistole to the Committee. He is an 
individual who is well known to this Committee. We have had the 
privilege of working with him closely over the past many years.
    The attempted bombings on Christmas Day of 2009 and just 
last month in Times Square remind us that terrorists remain 
committed to attacking our Nation. TSA performs a critical role 
in protecting us from these attacks.
    Following the Times Square bombing attempt, the suspect 
boarded a flight destined for the Middle East after his name 
was added to the No-Fly List. This suspected terrorist was 
literally minutes away from escaping through a gap in our 
aviation security system. At the time, airlines were required 
to update their No-Fly Lists only once every 24 hours; TSA has 
now ordered that this lag time be reduced to 2 hours in 
response to this very incident.
    But TSA could do more. Indeed, TSA should be directly 
responsible for comparing passenger names against the No-Fly 
List. Currently, TSA performs this role only for domestic 
flights. Although TSA has said that it will have Secure Flight 
implemented for all international flights by the end of this 
year, the new leader of the TSA must ensure that this goal is 
met.
    As demonstrated by the failed Christmas Day bombing 
attempt, our passenger checkpoint screening technology needs to 
constantly be improved to thwart terrorists' latest tactics. To 
that end, TSA plans to install 1,000 Advanced Imaging 
Technology (AIT) machines in American airports by the end of 
fiscal year 2011. TSA announced its latest procurement of these 
machines last month, purchasing another 300 machines, bringing 
the total to close to 500.
    I know that the Department of Homeland Security (DHS) is 
also reviewing Automatic Target Recognition (ATR), the auto-
detection software for these imaging machines. ATR identifies 
potentially threatening objects on a person going through AIT 
screening and eliminates the need for a second TSA employee to 
review the passenger's image in a separate room. This has the 
obvious benefits of addressing legitimate privacy concerns with 
this technology, reducing the space needed in airports, and 
lowering the installation and operational costs to the 
government and, thus, to taxpayers.
    I have observed the auto-detection technology in action in 
Amsterdam earlier this year. Dutch security officials expressed 
confidence in the technology's ability to detect concealed 
explosives of the nature used by the Christmas Day bomber. The 
next TSA Administrator should pursue this important advancement 
for the imaging program.
    Because foreign governments must be our partners in 
improving aviation security, TSA also must continue its 
international outreach, which has, to be fair, accelerated in 
recent months. This should include increased information 
sharing with foreign governments, which is uneven right now, 
and with air carriers about individuals who warrant more 
scrutiny in the screening process.
    But as the Chairman correctly has pointed out, aviation is 
not the only sector of transportation that merits TSA's 
vigilant efforts. The agency's mission extends to other modes 
of transportation, including our mass transit system. We have 
to be careful about focusing all of our resources on terrorist 
threats to aviation alone, as the threat clearly does not stop 
there.
    Mr. Pistole's nearly three decades of service with the FBI, 
including more than 5 years as Deputy Director, demonstrate 
significant law enforcement experience and leadership. He also 
has substantial experience in the management of law enforcement 
officers. If he is confirmed as the new TSA Administrator, 
these skills should serve him well in an agency that performs a 
law enforcement function. I look forward to discussing these 
and other issues with our nominee today. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thank you, Senator Collins.
    Mr. Pistole has filed responses to a biographical and 
financial questionnaire, answered pre-hearing questions 
submitted by the Committee, and had his financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made part of the hearing record, with 
the exception of the financial data, which are on file and 
available for public inspection in the Committee offices.
    Mr. Pistole, as I think you know, our Committee rules 
require that all witnesses at nomination hearings give their 
testimony under oath, so I would ask you to please stand now 
and raise your right hand. Do you swear the testimony that you 
are about to give to this Committee will be the truth, the 
whole truth, and nothing but the truth, so help you, God?
    Mr. Pistole. I do.
    Chairman Lieberman. Thank you. Please be seated.
    We would be happy to hear an opening statement if you have 
any and introductions if you would like of the long-suffering 
people behind you.

  TESTIMONY OF JOHN S. PISTOLE \1\ TO BE ASSISTANT SECRETARY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Pistole. Chairman Lieberman and Ranking Member Collins, 
thank you for the opportunity to appear before you today. I 
appreciate the opportunity to appear as the nominee for the 
Assistant Secretary of the Transportation Security 
Administration. I am honored by the President's call to service 
and by Secretary Napolitano's support.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Pistole appears in the Appendix 
on page 23.
---------------------------------------------------------------------------
    And with your kind indulgence, I would like to recognize my 
wife, Kathy, of nearly 31 years, and our daughters, Lauren and 
Jennifer, and thank them for their unwavering love and support. 
Also some family friends who are with us today, so I appreciate 
them being here.
    I would also like to express my appreciation to not only 
the men and women of the FBI that I have had the privilege of 
working with, but all those in Federal, State, local, and 
tribal law enforcement and the U.S. intelligence community, 
with whom I have had the privilege to work since becoming an 
FBI agent in 1983. And I would be remiss if I did not 
acknowledge our international partners without whose help we 
would be unable to fully address global terrorist threats which 
may impact the homeland. And to the men and women of TSA, I 
would like to say that I am eager to join your ranks and work 
with you in securing our Nation's transportation systems.
    I also appreciate the outstanding work Gale Rossides has 
done these last 18 months as Acting Administrator, along with 
all the senior staff who run the business of TSA every day. I 
would also just note the outstanding work that the Committee 
staff and the DHS and TSA staff have done to prepare for this 
hearing.
    As we know, since its creation after September 11, 2001, 
TSA has played a vital role in helping protect our national 
security. Never has that responsibility been more critical than 
today, noting, as you have, all the attacks and attempts we 
have seen in the last year, both here and abroad. Given these 
threats, it is critical that TSA be a risk-based, intelligence-
driven agency that anticipates threats and works closely with 
all of our partners to defeat the threats as part of a 
multilayered security discipline. Leadership in these areas, 
specifically national security and counterterrorism, are 
familiar territory for me in my nearly 27-year career with the 
FBI.
    For example, in 1999, I helped lead the investigation and 
recovery efforts of Egypt Air Flight 990 after it crashed off 
the coast of New England, killing over 230 people. In May 2003, 
I led an FBI team to Riyadh, Saudi Arabia, investigating the al 
Qaeda-affiliated, vehicle-borne bombings of three Western 
housing compounds in which 40 individuals were killed, 
including eight Americans. And as you have noted, for the last 
5 years, I have served as the Deputy Director of the FBI, 
overseeing all FBI efforts to protect the homeland.
    These experiences and the years I spent as a street agent 
in Minneapolis and New York, particularly on a FBI-New York 
Police Department Organized Crime Task Force, and also as a 
field supervisor in Indianapolis, an Assistant Special Agent in 
Charge in Boston, in addition to other areas, the great State 
of Maine, an inspector leading and conducting audits and 
evaluation of FBI offices, and an instructor at our FBI Academy 
and at the International Law Enforcement Academy in Budapest--
all of these have taught me the critically important lessons of 
developing key partnerships designed to protect our citizens 
from those who would cause us harm.
    My familiarity with and respect for field operations is 
combined with years in senior management. I understand complex 
organizations and am dedicated to leading TSA to the next 
level.
    Like the FBI, TSA relies upon a dedicated workforce, 
including over 47,000 Transportation Security Officers (TSOs) 
at airports throughout the Nation. They are TSA's field 
officers, the front lines in a layered network protecting our 
aviation sector. If confirmed, I will dedicate myself to 
supporting all of TSA's workforce and ensuring the highest 
standards of professionalism achieved through multiple 
disciplines such as comprehensive training, mentoring, and 
opportunity for professional development.
    I will also assess TSA's non-aviation surface 
transportation efforts in concert with other Federal agencies 
and State and local authorities. I will engage and work in 
close collaboration with all stakeholders, including other 
government agencies, private industry, our international 
partners, and, of course, the traveling public.
    Finally, throughout my FBI career, I have focused on the 
need to identify those who wish to do us harm while protecting 
individual civil rights and civil liberties. We should be 
judged not only by our ability to defend our Nation from 
terrorism, but also by our commitment to protect and defend the 
rights and freedoms we all enjoy.
    If confirmed, I look forward to a close working 
relationship with this Committee and Congress overall. I would 
be honored to serve with the dedicated men and women of TSA, 
and I applaud the challenging work they do each and every day.
    Mr. Chairman, Ranking Member Collins, I thank you again for 
the opportunity to appear before you today, and I look forward 
to your questions. Thank you.
    Chairman Lieberman. Thank you very much, Mr. Pistole, for 
that excellent opening statement. I am going to start my 
questioning with the standard three questions we ask all 
nominees.
    First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Pistole. No.
    Chairman Lieberman. Second, do you know of anything, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Mr. Pistole. No.
    Chairman Lieberman. And, third, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Mr. Pistole. Yes.
    Chairman Lieberman. I am not going to add, ``Will you 
comply with subpoenas issued by this Committee?''
    Mr. Pistole. Thank you, Mr. Chairman.
    Chairman Lieberman. Let us start the serious questioning.
    Because of our reliance as a Nation on the domestic and 
global transportation networks to move goods and people, as I 
said in my opening statement, the transportation sector 
obviously continues to be a potential target for terrorist 
attacks. I wanted to ask you what your top priorities for TSA 
are if you are confirmed to be its next director?
    Mr. Pistole. Thank you, Mr. Chairman. The first priority is 
to ensure that TSA has the latest intelligence to inform the 
individuals to perform the operations that TSA is charged with, 
and by that I mean to ensure that as a threat- and risk-based 
intelligence agency, it not only is able to pull information 
from the entire U.S. intelligence community and our foreign 
partners, but that information is being pushed on a daily, if 
not hourly, basis. That is the top priority. The second----
    Chairman Lieberman. That is really interesting. Excuse me 
for stopping you there. In other words, because we think of the 
TSA basically as, you might say, a reactive organization or an 
organization that checks people as they get on planes, or 
screens cargo. But you are suggesting something else.
    Mr. Pistole. Yes, Mr. Chairman. My perspective on it is 
that TSA is one component in a much larger continuum, which 
should start, I would suggest, for example, as the Najibullah 
Zazi investigation did out of Denver and New York.
    Chairman Lieberman. Right.
    Mr. Pistole. Informed by the intelligence on the front end 
so hopefully the plots are disrupted before people ever get to 
screening. For example, in the Zazi case, obviously there was a 
thorough investigation that was predicated on excellent 
information sharing not only within the United States, but 
internationally. And so by the time Zazi and his two co-
conspirators were ready to construct the backpack devices to go 
in the New York City subways, the plot was disrupted. So it 
never got to the screening part. So in that continuum, TSA 
plays a critical part obviously in that screening. If nothing 
has been developed, such as with Mr. Shahzad from Times Square, 
if he had been going on a flight, but then also, for example, 
even if somebody does get through screening somehow, we have 
the Federal air marshals on the flights, we have the hardened 
cockpits, and all those other things.
    Chairman Lieberman. Yes. So do you think now that there is 
an inadequate link between TSA and the intelligence community?
    Mr. Pistole. I do not know that, but if confirmed, that 
will be the first thing that I look at when responding to your 
priorities.
    The second priority is to look at the workforce development 
issues. Again, you mentioned over 50,000 employees, a lot of 
moving parts, a lot of people dedicated to doing the mission 
each and every day, as I mentioned. I want to ensure that I can 
work with all the employees of TSA to hear their concerns, hear 
their issues, and make sure that they have the tools, the 
techniques, the training, and technology to do the best job 
possible. So those are the top two priorities.
    Chairman Lieberman. I do not know whether you said this at 
the Commerce Committee hearing or to somebody else somewhere, 
but I have heard that you are thinking about spending a day or 
two as a TSA employee or a TSO.
    Mr. Pistole. That is correct.
    Chairman Lieberman. Tell me about what you are thinking.
    Mr. Pistole. Well, because I have been an FBI agent for 
nearly 27 years, I do not have, I think, a sense of 
appreciation for what the TSOs or the Federal air marshals or 
the behavior detection officers do. So if confirmed, I plan to 
spend some time doing those jobs just to get a sense--I have 
read the job descriptions online, seen the printed material to 
know what the job requirements are, the ability to do those 
jobs. So in order to really be fully informed, I plan to do 
that.
    Chairman Lieberman. That is great. I think obviously the 
TSOs and all the TSA employees will appreciate that. The morale 
seems good as we go through the line, but maybe I would see 
otherwise. I do remember one time about 6 months ago I went 
through the line, and one of the TSOs followed me and said, in 
a very respectful way, that he felt that the regional 
management was not listening to the TSOs in terms of some of 
their thoughts about how to better do the job.
    Obviously we have come a long way post-September 11, 2001, 
and this agency has developed and grown very rapidly, and there 
is a certain amount of fixed hardware there now. But you have 
enough law enforcement, preventive, and administrative 
background that I hope you will approach this as if you can 
imagine nothing existed and figure out how you would best 
fulfill the mission that TSA has, and then maybe you can come 
back to reality and adjust it in some way.
    Mr. Pistole. Thank you, Mr. Chairman. Obviously one of my 
jobs as the Deputy Director of the FBI is helping run the 
business of the FBI every day, making sure that we are being 
good stewards of the taxpayers' dollars and making sure that we 
are allocating our resources to where the threats are. And that 
is exactly the management philosophy I intend to take to TSA, 
if I am confirmed.
    Chairman Lieberman. I wanted to ask you a quick question in 
my remaining time in this round about rail and transit 
security, and it does take me back to the Zazi case and 
obviously the attacks in London, Madrid, and Mumbai on mass 
transit. What is your general assessment, given your FBI 
experience, of the threat to rail and transit systems, 
including buses, in the United States today? And what do you 
think we can do in these non-aviation areas of transportation, 
on which millions of Americans travel every day, to better 
secure them?
    Mr. Pistole. I think as you have noted, there are a number 
of threats based on what we have seen since Madrid in 2004 and 
in London in 2005 and in Mumbai in 2007 and a number of other 
attacks in India, and then in Moscow 2 months ago with the two 
female suicide bombers in the subway.
    Clearly, we know from intelligence that al Qaeda and other 
related terrorist groups have an interest in attacking soft 
targets. Obviously, the success of September 11, 2001, 
emboldened them, but we know that as we harden targets, they 
look for softer targets, and clearly rail and, as we know from 
Israel, buses, at least there--in fact, tomorrow is the eighth 
anniversary of attacks on June 18 or 19, 2010, where over 60 
people were killed and 100 injured in bus attacks in Israel. We 
know that they will look for soft targets, and so if confirmed, 
one of the things I want to do is ensure that a very 
comprehensive rail and surface transportation threat assessment 
is completed--there have been portions of that done--and ensure 
that, again, we are putting our resources where the threats 
are, recognizing we cannot be all things to all people at all 
times, all places, but that we are allocating resources based 
on risk.
    Chairman Lieberman. I appreciate that. I hope you will make 
that a priority. It is one, as I said to you when we talked 
before, that concerns me. I know that the conventional wisdom 
is that we could never practically apply the same kind of 
screening techniques to people getting on trains or buses that 
we do to people getting on planes. But I hope you will push 
that envelope a little bit, at least to explore it, because I 
know other countries have moved forward on some of that. Some 
of it costs money, and that is something to consider. But I 
think we should ask you as the new TSA Administrator just to 
view it as a security problem and a challenge. If you have some 
fresh ideas about how to better secure rail and bus 
transportation before an attack as opposed to after, then 
please come forward and let us know, and we want to work with 
you on it. Thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Pistole, I want to ask you a series of questions 
related to the FBI's use of National Security Letters and what 
are called ``exigent circumstances letters.'' The Inspector 
General (IG) at the Department of Justice issued three reports 
between 2007 and 2010 that were critical of FBI management for 
abuses of this authority. Now, as I understand it, National 
Security Letters are essentially administrative subpoenas that 
are used to collect some limited types of information in 
terrorism investigations.
    The FBI, after September 11, 2001, adopted a practice of 
sending exigent circumstances letters, which were supposed to 
be used in emergency situations, and they are supposed to be 
followed up with a National Security Letter. These exigent 
circumstances letters were not authorized by law, and some of 
them were not followed up by a National Security Letter. The IG 
found problems in roughly half of the 4,400 cases that were 
reviewed, indicating at least a technical violation of the law. 
So with that background, let me ask you some questions since 
you were Deputy Director during part of that period.
    First, did you personally have any involvement in the 
approval or the issuance of exigent circumstances letters?
    Mr. Pistole. No.
    Senator Collins. When did you first become aware of the use 
of these letters?
    Mr. Pistole. During the course of the first Inspector 
General report when they notified the senior leadership of the 
FBI.
    Senator Collins. Although the IG found fault with many 
levels of management at the FBI for allowing this practice, was 
there any finding of individual wrongdoing on your part?
    Mr. Pistole. No, Senator.
    Senator Collins. What actions, once you became aware of 
this problem and the IG's reports, did you take to remedy the 
practices?
    Mr. Pistole. I took three steps, the first being to issue 
an immediate directive to both the Counterterrorism Division 
and all 56 field offices to immediately cease and desist the 
use of the exigent circumstances letters. Exigent letters is 
what we called them.
    Second, we instituted a rigorous process and protocol 
review and implemented a new policy for redundant layers of 
review that we did not have by the Chief Division Counsel of 
each office and then the Special Agent in Charge of each of our 
field offices.
    And then, third, we instituted a rigorous inspection review 
on a periodic basis for all 56 offices and the Counterterrorism 
Division in particular to assess whether they were in 
compliance with the new protocols that we put in place.
    Senator Collins. Thank you.
    Let me turn to a different issue. As those of us who travel 
a great deal know, there have been times when TSA has rushed 
the deployment of new screening technologies only to later 
recognize that they have not worked very well. For example the 
``puffer'' machines that we had in Washington were here for 
several months and then ended up having so many problems that 
they were pulled from operation. This costs a lot of money 
every time technology is rushed before there is thorough 
operational testing. I am told that in this case, the puffer 
machines worked wonderfully well in a sterile laboratory 
environment, but did not work well in the real-life environment 
of an airport.
    The Government Accountability Office has been very critical 
of TSA for not doing sufficient operational testing before 
deployment. Given the agency's very mixed record with screening 
technology deployment, what steps will you take to ensure that 
there is operational testing before we make a major investment?
    Mr. Pistole. Well, Senator, obviously on any major 
deployment of technology, personnel systems, information 
technology (IT) systems, there needs to be a thorough and 
rigorous testing, and not just in the lab, as you mentioned, 
but in reality, to account for all the challenges that would be 
encountered. So if confirmed, I would pledge to work with the 
Committee, but particularly to institute that type of review, 
to do a deep dive on anything that is currently planned or 
anything for future planning to ensure that type of testing is 
done, that things are not rushed out because of some urgency 
that is driven by other than operational necessity, and that 
there is rigorous adherence to the process and protocols that 
should be in place.
    Senator Collins. Thank you.
    In other cases, it appears that DHS is not quick enough to 
adopt new technologies. I mentioned in my opening statement and 
in my office when we had our meeting that when I went to 
Schiphol Airport in Amsterdam, I saw the new technology that 
has been implemented there in the wake of the Christmas Day 
bomber. And I was very impressed with the software because it 
took an element of human judgment out of the equation in a 
useful way by scanning the body for hidden materials or 
problematic concealments in a way that the officials in 
Amsterdam told me they were confident would have detected the 
concealed explosives on Abdulmutallab. It also avoided a lot of 
the privacy issues that have been problematic with full-body 
imaging. I was astounded that the Dutch seemed to be so far 
ahead of us.
    What can we do to ensure that we are aware of the best 
technology and share information with our foreign partners?
    Mr. Pistole. Thank you, Senator. I am very interested in 
that technology, to learn more about it, and if confirmed, I 
would like to use the opportunity, based on my extensive 
experience in international law enforcement security services 
and activity and the great work that has already been done both 
at TSA and the DHS Science and Technology Directorate, to make 
an assessment fairly early on as to the propriety of that 
equipment, the pros and cons, and making sure that the 
operational testing is done sufficiently to assess if this is 
the best technology that is available today and if it is 
helping to not only assess for today but inform for future 
threats, trying to anticipate what those threats may be, as 
opposed to building technologies for yesterday's threats.
    Senator Collins. Exactly. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins. Maybe we will 
do one more quick round.
    I am also going to go back to the December 25, 2009, attack 
since the Committee, as a result of activities in the 
Abdulmutallab case, has been reviewing the processes the 
Federal Government employs in developing and utilizing the 
numerous terrorism watchlists. And, of course, this has been 
something I know you have been involved in through the 
Terrorism Screening Center in the FBI, but now will be in TSA.
    Over 400,000 individuals have been identified as known or 
suspected terrorists--and I know they get to this in various 
ways--on the Terrorist Screening Database (TSDB) list, but only 
a small subset of those people currently meet the standard of 
the Selectee List, which means that they are taken out of line 
and they face enhanced physical screening and other measures at 
our airports.
    I think that we need to expand the number of people that we 
subject to that secondary screening, perhaps the entire TSDB 
watchlist. I understand that may be a substantial change and 
entail additional responsibilities. But to me, the risk of 
allowing someone on the watchlist to board a plane without 
being subjected to at least a secondary physical screening for 
a bomb or weapons concealed or anything else is really 
intolerable. And I am thinking about this in terms of public 
credibility. God forbid if such a person ends up carrying out 
an attack on a plane, the public's confidence in our screening 
systems would be severely compromised.
    I know in your response to the Committee's pre-hearing 
questions you assured the Committee that you would work to 
identify and utilize an appropriate larger subset of the 
Terrorism Screening Database. I wanted to ask you, to the 
extent you have thought about it, what criteria you think you 
will use as you review this matter to determine the travelers 
appearing in the broader database who should be subjected to, 
as I say, at least enhanced physical screening?
    Mr. Pistole. Thank you, Mr. Chairman. Obviously, there are 
a number of factors involved. One of the key factors, as I see 
it from my FBI experience, and which I would take, if 
confirmed, to TSA, is what specific information do we have, 
obviously, about the identity of the individual, making sure 
not only to have as full a name as possible, but a plus-one 
identifier, if at all possible, which is one of the things we 
look for on the Selectee or No-Fly Lists to make sure that we 
do not have a high number of false positives, the Bill Smiths 
of the world or whatever, if we do not have that plus-one 
identifier.
    Coupled with that, though, is the general requirement of 
there being some derogatory information about the individual to 
ensure that this is not what we call a poison pen, that 
somebody has just written in about a business competitor or a 
jilted lover or all these things--and we see these all the 
time, obviously, in the line of business I am in. So is there 
some derogatory information that can be ideally independently 
corroborated, which is usually not the case.
    But you make a good point about ensuring and erring on the 
side of preventing things from happening, and the more we can 
do--there are obviously redress procedures for people who 
should not be on there. So if confirmed, I would look forward 
to digging into that more and seeing it from the TSA side of 
things rather than the FBI side.
    Chairman Lieberman. I appreciate that, and I stress it 
again because as you know, anytime anything happens there are 
immediate investigations done by the media, by Congress, and by 
the agency itself.
    Mr. Pistole. I am familiar with that.
    Chairman Lieberman. You sure are. [Laughter.]
    And it is just hard to explain why somebody who did enough 
to get onto that screening list--maybe part of what you are 
saying is that there ought to be a filter before a person gets 
on that list, or even on a lesser list, but if that person got 
on and carried out an attack, it would be hard to explain to 
people why we did not stop it.
    In 2009, I know that there were disputes between the 
Department of Homeland Security and the FBI about how much 
information to share with State and local law enforcement 
officials about ongoing investigations, including the 
Najibullah Zazi and David Headley cases. I gather that the FBI 
was reluctant to share information about the investigations, 
and DHS was more inclined, even pushing to share the 
information, given the belief that heightened awareness might 
have raised the vigilance of State and local law enforcement 
officials and perhaps led them to uncover related plots.
    As an example, I want to ask you what steps have the FBI 
and DHS taken to come to a better understanding, if any, about 
how to share information with State and local law enforcement 
officials related to ongoing investigations.
    Mr. Pistole. So the first part of that is that there is a 
dynamic tension between how much to share, with whom, and at 
what point. And, obviously, within DHS's enabling legislation, 
they are required to share with State, local, and tribal law 
enforcement officials, something that the FBI has been in the 
business of doing for over 100 years now.
    Part of the challenge is--and it really comes down to a 
case-by-case determination, but, for example, Deputy Secretary 
of DHS Jane Lute, the former Deputy Attorney General, Mike 
Leiter from NCTC, and I sat down during this time frame you are 
talking about, between Zazi and then Christmas Day, to try to 
find the best way forward on that case-by-case determination, 
noting that there are a number of people, as you say, that may 
benefit from that information. For example, with Zazi, are 
there other people out there acquiring hydrogen peroxide or 
just peroxide from beauty supply stores that we would like to 
be informed about? We have a number of trip wires between FBI 
and DHS across the country on things like that, and ammonium 
nitrate fertilizer, large purchases, things like that, which we 
rely on the cooperation of the American people to help inform 
us.
    The challenge then becomes at what point, again, do we say 
that there should be broad dissemination for people who may or 
may not have a need to know versus the compromise of an ongoing 
investigation as we see from time to time where the FBI will 
share, for example, with all 106 Joint Terrorism Task Forces, 
and at some point, the information gets out in the media, so 
there is something that happens as a result of that.
    So the agreement that we have worked out is to ensure that 
the Secretary, Deputy, and others have the information on an 
ongoing basis, but then that we work very closely before there 
is a broad dissemination of sensitive ongoing operational 
information.
    Chairman Lieberman. Understood. It is a balance. TSA is a 
very different kind of agency in its relations with State and 
local law enforcement officials. Or is it? How do you 
contemplate those relationships?
    Mr. Pistole. As I mentioned, Mr. Chairman, I see TSA as 
being one of those multiple layers of security that has 
obviously tremendous interaction with, for example, the almost 
2 million Americans or people traveling in the United States 
every day by aviation. It is a different relationship than the 
FBI has, for example, on the trip wires, reaching out to the 
private sector, or DHS has in terms of trying to have 
intelligence information provided.
    But that being said, the behavior detection officers, the 
TSOs, and the Federal Air Marshals (FAMs) all have 
opportunities to observe and to pass on information, which may 
be of intelligence value. So I want to make sure that is 
happening as opposed to information just being one-off and 
nothing being done with it.
    Chairman Lieberman. Good. Thank you, Senator Collins.
    Senator Collins. Thank you. Mr. Pistole, I remember a 
couple of years ago the head of the sea port in Portland, 
Maine, showing me an array of identification (ID) cards and 
special credentials that he was required to have in order to 
access the port that he directed every day. It included a 
Transportation Worker Identification Credential (TWIC) card, 
but it included many other kinds of credentials.
    Many commercial truck drivers have to comply with multiple 
credentialing and background check programs, which includes the 
TWIC card and a hazardous materials endorsement threat 
assessment. There are all these different and overlapping 
credentials.
    Now, the programs are important because we want to know who 
is getting access to sensitive areas, and we want to control 
that. But there does appear to be quite a bit of duplication, 
and that involves additional costs, and it is time-consuming.
    What would you do as head of TSA to take a look at those 
credentials to see if there is a way to harmonize them, to 
combine them, to avoid some of the duplication that now occurs?
    Mr. Pistole. Thank you, Senator Collins. Obviously, all 
these forms of ID are designed for the good purpose of trying 
to keep people from doing bad things, and part of it, 
obviously, is designed to look at the possible insider threat, 
somebody who may obtain employment with bad intent or who 
already has employment and has access to the port in Portland 
or elsewhere and then is co-opted and encouraged to do 
something bad. So the intent is good.
    If confirmed, what I would pledge to do is a deep dive on 
all the types of identification, including the TWIC, and to 
assess what is the best business model for moving forward to 
have the effectiveness and efficiency to achieve the outcomes 
that they are designed for.
    So I do not know at this point whether that redundancy can 
be eliminated or not, but I pledge to look into it.
    Senator Collins. The final issue that I want to raise with 
you is one that we have also discussed in my office, but I want 
to get on the record, and that has to do with the issue of 
collective bargaining. As you know, currently the law gives TSA 
the authority to shift resources and to implement new 
procedures at will. And that authority is important because it 
allows TSA to respond to emergencies and changing 
circumstances. It allows TSA to make the best use of its 
workforce, and we have seen the concrete benefits of this 
authority, both in the aftermath of Hurricane Katrina and the 
thwarted airline bombing plot that originated in Great Britain 
in 2006. In both cases, TSA was able to change the nature of 
its employees' work and even the location of that work very 
quickly, without having to go through any kind of collective 
bargaining procedure.
    It has also been very useful to TSA when it has not been a 
terrorist plot but it has been a blizzard, for example. That 
happened in December 2006.
    I believe that we need to ensure that TSA employees have a 
process for appealing adverse actions, and I suggested to the 
Administration that the way to do this is to formalize a 
process where the Merit Systems Protection Board would hear and 
rule on adverse actions so you can protect employees from 
perhaps an unfair or arbitrary development or action by a 
supervisor that was not warranted without giving full 
collective bargaining rights.
    What are your views on the issue of collective bargaining 
rights for TSA employees?
    Mr. Pistole. Obviously, Senator, there are a lot of complex 
issues inherent in everything that you have just noted. That 
being said, Secretary Napolitano has asked that I conduct a 
review and assessment, and that is what I am planning to do.
    Based on my experience in the FBI, where we did not have 
unions or collective bargaining or anything, I need to obtain 
more information. That is part of listening to all the 
stakeholders, to hear what the issues are--you have articulated 
a number of them--and to then be able to make that assessment.
    One of the things I am focused on and will continue to 
focus on is making sure that the security and safety of the 
American people are not adversely affected by anything that 
would come out of these discussions.
    Senator Collins. That does have to be the priority, and I 
think it is also important to remember that we are dealing with 
a law enforcement function here. So your experience with the 
FBI is directly relevant.
    We have seen public service employees be members of unions 
and collectively bargaining without it impairing their ability 
to carry out their duties. But I am very concerned about 
preserving what I believe to be absolutely essential 
flexibility, and I think the fact that the FBI does not have 
collective bargaining is telling.
    Let me just in a final comment say that I was particularly 
pleased when the President posted your nomination because it 
showed that the President understood the value of having 
someone with a law enforcement background in this critical 
position. So I do think that was an appropriate move by the 
President.
    Mr. Pistole. Thank you, Senator.
    Senator Collins. I also want to apologize to you because 
had I not asked that last question, we might have adjourned the 
hearing before Senator Carper came. [Laughter.]
    Senator Collins. And goodness knows what he is going to ask 
you. Thank you, Mr. Chairman.
    Mr. Pistole. Thank you, Senator.
    Senator Collins. And my apologies.
    Chairman Lieberman. Thank you, Senator Collins.
    There is part of Senator Carper, our dear and beloved 
friend and colleague, that is like a force of nature, so we 
never quite know how he is going to begin. In any case, we 
always welcome him and look forward to his participation.
    With that, Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. I am so glad to be here. [Laughter.]
    And we are glad that you are here, too, and that you are 
willing to take a shot at this. There is an old saying: ``The 
third time is a charm.'' In your case we sure hope so.
    I presume when the President and his folks were prevailing 
on you to be willing to have your name submitted, somebody 
somewhere along the line must have raised why they felt our 
first two nominees did not make it through and why the 
Administration thought that you just might. What kind of 
encouragement did they give you that you just might make it 
through?
    Mr. Pistole. Well, Senator----
    Senator Carper. What is different about you?
    Mr. Pistole. I do not know about the first two candidates. 
They did not talk to me about that. But they obviously talked 
about my background and the fact that I have the leadership and 
management experience and all those things that they thought 
would be beneficial for the Administrator position.
    Senator Carper. When you came to visit me, I asked you if 
your wife knew you were doing this, and you said yes.
    Mr. Pistole. I replied affirmatively, and she would testify 
under oath to that. So, yes. [Laughter.]
    Senator Carper. You say she testified under oath?
    Mr. Pistole. She would.
    Senator Carper. How about your kids? Do they know?
    Mr. Pistole. They know also, yes, and they are all in 
agreement.
    Senator Carper. That is good. It is nice to see you all. 
Thanks for your willingness to continue to share your husband 
and your dad with the people of our country.
    When you and I met, one of the things I raised with you--
and I have raised this, I think, in an earlier hearing of our 
Committee--is the issue of behavior pre-screening, which the 
Israelis are particularly adept at, as folks come into airports 
and are checking in, getting their tickets, checking their 
luggage, and going through security. And not just Israel. A 
couple of other countries are pretty good. I think Great 
Britian is pretty good at this sort of thing as well. But these 
officials will try to identify and prevent the bad guys, as you 
know, from boarding aircraft by watching the way that they 
behave before they get to the gate. And the airports position 
well-trained personnel throughout their terminals, including, I 
guess even in some cases, outside of their terminals, to maybe 
politely ask questions and to watch facial expressions, watch 
body language, and watch speech patterns.
    What are your thoughts on our current behavior detection 
capabilities within U.S. airports? And would you make it a 
priority to continue to enhance these behavior screening 
programs?
    Mr. Pistole. In response to your latter question, Senator, 
yes, I would enhance those efforts. I have not had a detailed 
briefing on the current capabilities, outcomes, but I know from 
my experience at the FBI, where we have a Behavioral Analysis 
Unit at the FBI Academy at Quantico, that there is a lot that 
can be gleaned from assessing somebody by their behavior. And 
so I want to look into that. I am a strong supporter of the 
possibilities, recognizing the Israeli model, as you mentioned, 
as probably the premier one, and also recognizing that there is 
a scalability issue there between one major airport and the 
relatively low number of air travelers every day versus the 
nearly 2 million at over 450 airports here in the United States 
every day. So recognizing those challenges, I am a supporter 
and look forward to reviewing it in more detail.
    Senator Carper. Thank you.
    If confirmed, you are going to be responsible for leading a 
workforce, I think, of over 50,000 security officers, 
inspectors, and air marshals whose job it is to protect our 
Nation's transportation systems from criminal and terrorism 
threats. Can you just take a moment and share with us some 
lessons learned that you plan on bringing to the job that you 
found successful in your 35 years of Federal service? We would 
like to hear that.
    Mr. Pistole. Sure, Senator. Thank you. There are several. 
One, with such a large workforce, there has to be obviously 
some matrix management in terms of regional management of 
offices and people. So I see that as very similar to what the 
FBI currently has with our 34,000 employees in 56 field offices 
and 76 offices overseas. Those individuals are responsible for 
their area of responsibility, obviously, but they have a direct 
reporting to FBI headquarters, which is what I currently do. 
And it is headquarters-driven so you do not have all these 
different independent operators out there. And so everybody has 
to have some consistency, uniformity, and predictability in how 
they go about their business, and so I am currently the rating 
official, the person in charge for the heads of all of our 56 
offices and an additional 12 or so senior executives at FBI 
headquarters. So I have experience in knowing how to run the 
business, if you will, and plan to do the same thing, if 
confirmed, at TSA.
    Senator Carper. In closing, please share with us your basic 
leadership principles that you try to subscribe to.
    Mr. Pistole. Sure. It really comes down to a couple basic 
things, and that is, trying to empower people with the tools 
and in many cases technology to do their job, to obviously 
praise in public, reprimand in private, doing things that 
encourage people to live up to their potential, and as part of 
that, for TSA, I hope to take what I see at the FBI in my 27 
years of experience there in terms of really having a strong 
sense of mission and commitment to duty. And I see TSA being 
similarly situated in terms of having the national security 
mission on this continuum that I was speaking with the Chairman 
and Ranking Member earlier about. There is intelligence on the 
one end that hopefully will interdict the plot before it ever 
gets to screeners or behavior detection officers or canines or 
any of those issues, but to ensure that they are empowered to 
do their work. So it is really trying to identify the best 
people, surround myself with those people, and then turn them 
loose and let them do their jobs.
    Senator Carper. Great. Any questions we did not ask you 
that you think maybe we should have?
    Mr. Pistole. No, Senator. Thank you, though. [Laughter.]
    I did hesitate just briefly there.
    Senator Carper. Thank you very much. I look forward to 
meeting your family.
    Mr. Pistole. Thank you, Senator.
    Chairman Lieberman. Thanks, Senator Carper.
    Did you ever try that last question on somebody you were 
interrogating?
    Mr. Pistole. Many times, Mr. Chairman. And sometimes they 
will respond, so you never know. [Laughter.]
    Chairman Lieberman. That is most interesting.
    Thank you very much for appearing before the Committee 
today and for your responsive answers to our questions. While 
we teased before about your family, really we appreciate, both 
from your wife and your children, their support of your career 
and your willingness to take on this latest assignment as we 
appreciate your willingness to do so.
    We are going to try to move this through as quickly as we 
can. Our goal is to make sure you get confirmed before we break 
for the July 4th recess.
    Mr. Pistole. Thank you, Mr. Chairman.
    Chairman Lieberman. So hopefully we will get you out of the 
Committee sometime next week and then passed on the floor as 
soon thereafter as possible. And so far I do not know whether 
it is your qualities or just people are generally intimidated 
by a Deputy FBI Director, but I have not heard much opposition 
yet. Have you, Senator Collins?
    Senator Collins. No.
    Chairman Lieberman. It is always possible, but you deserve 
to have unanimous support, and I hope that is what you will 
have.
    Mr. Pistole. Thank you, Mr. Chairman.
    Chairman Lieberman. Do you want to say anything more, 
Senator Collins?
    Senator Collins. No.
    Chairman Lieberman. Without objection, the record will be 
kept open until the close of business tomorrow for the 
submission of any written questions or statements. I thank 
everyone who has been here. The hearing is adjourned.
    [Whereupon, at 3:57 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                 <all>

</pre></body></html>
